<html>
<title> - IMPROVING FEDERAL SPECTRUM SYSTEMS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                   IMPROVING FEDERAL SPECTRUM SYSTEMS

=======================================================================

                                HEARING

                               BEFORE THE

             SUBCOMMITTEE ON COMMUNICATIONS AND TECHNOLOGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 7, 2015

                               __________

                           Serial No. 114-84
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                           


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                               _____________
                               
                           U.S. GOVERNMENT PUBLISHING OFFICE
98-660                          WASHINGTON : 2016                           
                
________________________________________________________________________________________   
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="83e4f3ecc3e0f6f0f7ebe6eff3ade0eceead">[email&#160;protected]</a>  
                
                   
                   
                   COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Missouri               JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                     Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota
             Subcommittee on Communications and Technology

                          GREG WALDEN, Oregon
                                 Chairman
ROBERT E. LATTA, Ohio                ANNA G. ESHOO, California
  Vice Chairman                        Ranking Member
JOHN SHIMKUS, Illinois               MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          PETER WELCH, Vermont
STEVE SCALISE, Louisiana             JOHN A. YARMUTH, Kentucky
LEONARD LANCE, New Jersey            YVETTE D. CLARKE, New York
BRETT GUTHRIE, Kentucky              DAVID LOEBSACK, Iowa
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  DIANA DeGETTE, Colorado
ADAM KINZINGER, Illinois             G.K. BUTTERFIELD, North Carolina
GUS M. BILIRAKIS, Florida            DORIS O. MATSUI, California
BILL JOHNSON, Missouri               JERRY McNERNEY, California
BILLY LONG, Missouri                 BEN RAY LUJAN, New Mexico
RENEE L. ELLMERS, North Carolina     FRANK PALLONE, Jr., New Jersey (ex 
CHRIS COLLINS, New York                  officio)
KEVIN CRAMER, North Dakota
JOE BARTON, Texas
FRED UPTON, Michigan (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     1
    Prepared statement...........................................     3
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................     4
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
    Prepared statement...........................................     7
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    60

                               Witnesses

Phillip Berenbroick, Counsel, Government Affairs, Public 
  Knowledge......................................................     9
    Prepared statement...........................................    11
Dennis A. Roberson, Vice Provost, Research Professor in Computer 
  Science, Illinois Institute of Technology......................    16
    Prepared statement...........................................    18
Jeffrey H. Reed, Willis G. Worcester Professor of Electrical and 
  Computer Engineering, Virginia Polytechnic Institute and State 
  University.....................................................    26
    Prepared statement...........................................    28

 
                   IMPROVING FEDERAL SPECTRUM SYSTEMS

                              ----------                              


                       WEDNESDAY, OCTOBER 7, 2015

                  House of Representatives,
     Subcommittee on Communications and Technology,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:15 a.m., in 
Room 2322 Rayburn House Office Building, Hon. Greg Walden 
[chairman of the subcommittee] presiding.
    Members present: Representatives Walden, Latta, Shimkus, 
Blackburn, Lance, Guthrie, Olson, Bilirakis, Johnson, Long, 
Ellmers, Collins, Cramer, Eshoo, Welch, Clarke, Loebsack, 
DeGette, Butterfield, and Pallone (ex officio).
    Staff present: Ray Baum, Legislative Associate, Energy and 
Power; Rebecca Card, Assistant Press Secretary; Andy 
Duberstein, Deputy Press Secretary; Gene Fullano, Detailee, 
Subcommittee on Communications and Technology; Kelsey 
Guyselman, Counsel, Subcommittee on Communications and 
Technology; Grace Koh, Counsel, Subcommittee on Communications 
and Technology; Tim Pataki, Professional Staff Member; David 
Redl, Counsel, Subcommittee on Communications and Technology; 
Charlotte Savercool, Legislative Clerk; Greg Watson, 
Legislative Clerk; Jeff Carroll, Staff Director; David Goldman, 
Chief Counsel, Subcommittee on Communications and Technology; 
Jerry Leverich, Counsel; Lori Maarbjerg, Detailee, FCC; and 
Ryan Skukowski, Policy Analyst.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. I am going to call to order the subcommittee on 
Communications and Technology and our hearing on improving 
federal spectrum systems.
    During my time as chairman of this subcommittee, one of the 
most important topics that we have addressed is spectrum, how 
to better use it, how to allocate it and how to value it. And 
through our work, we found bipartisan agreement on many of the 
policy issues around this valuable resource.
    Three-and-a-half years ago, the Congress passed the Middle 
Class Tax Relief and Job Creation Act that included the 
spectrum incentive auction provisions the subcommittee brought 
to the table. And it properly conducted the upcoming broadband 
incentive auction and will successfully free up a wide swath of 
valuable spectrum for new purposes. But with worldwide demand 
for wireless connectivity expected to grow 400 percent in the 
next 3 years, and given that the U.S. Government is nowhere 
close to meeting the goal of repurposing 500 megahertz as 
called for in the national broadband plan, it is clear we have 
more work to do.
    One way we can continue to free up additional spectrum is 
through the use of the Commercial Spectrum Enhancement Act. 
Under the SCEA, commercial providers bear the cost of moving 
federal incumbents to clear spectrum. Given the budgetary 
pressures facing the country and the significant challenges our 
defense agencies face as a result of fiscal belt tightening, I 
think we have an opportunity to work together to optimize the 
value of under utilized spectrum and upgrade equipment and 
services used by the federal agencies.
    Although there are many hurdles to overcome in clearing and 
reallocating federally-held spectrum, we have proven it can be 
done with great success. The best example of this is the AWS-3 
Auction which made 65 megahertz of spectrum available for 
wireless broadband and raised more than $44 billion.
    The AWS-3 Auction worked. Now let us move forward by giving 
agencies new tools that will allow them to become more 
innovative and efficient in how they use spectrum.
    Under current law, federal spectrum users receive 
compensation for relocating spectrum-based systems and can 
upgrade equipment to further their mission. Carriers get the 
opportunity to purchase a resource that they desperately need 
and above all, consumers love better mobile broadband service 
allowing them to access the services and information they so 
clearly want and need.
    Building on this successful process, today we are 
considering two pieces of legislation that will help move 
America forward. First, Representatives Guthrie and Matsui's 
Federal Spectrum Incentive Act allows interested agencies to 
take part in an incentive auction where they are compensated 
for relinquishing spectrum through auction proceeds. Currently, 
agencies are only allowed to be reimbursed for sharing or 
relocating. This legislation would actually incentivize 
agencies to take a hard look at their spectrum use and to give 
up the spectrum that they do not need.
    We are also considering a bill that would require the FCC 
to report back to Congress with draft auction plans. Now this 
legislation is intended to help establish a more consistent and 
predictable supply of spectrum going forward through a formal 
process between the Congress, the FCC, and NTIA and other 
agencies.
    While the speed of innovation and technology is blindingly 
fast, the time line for reallocating spectrum often is 
reflective of the tangled bureaucracy of government, and the 
fiscal and operational restraints on agencies. This conflict 
illustrates the urgent need for legislation to reform the 
federal system, bring about predictable and transparent auction 
rules, and provide clear incentives for agencies to free up 
under used or unneeded spectrum.
    We can move forward on this front while at the same time 
making sure agencies who rely on the resource for mission-
critical operations have the most modern communications 
technology in the world.
     I would like to thank Ranking Member Pallone and 
Representative Clarke for working with us on this bipartisan 
discussion draft and I look forward to our continued 
collaboration with all the members of the subcommittee. Working 
together we can provide the framework and incentives to 
increase efficiency, upgrade government systems, and make more 
spectrum available to meet our country's wireless broadband 
needs and raise a little money for the taxpayers. With that, I 
will yield the balance of my time to the gentleman from Ohio, 
Mr. Latta.
    [The prepared statement of Mr. Latta follows:]

                 Prepared statement of Hon. Greg Walden

    During my time as chairman of this subcommittee, one of the 
most important topics that we've addressed is spectrum--how to 
better use it, how to allocate it, how to value it. And through 
our work we've found bipartisan agreement on many of the policy 
issues around this valuable resource.
    Three-and-a-half years ago Congress passed the Middle Class 
Tax Relief and Job Creation Act, including the spectrum 
incentive auction provisions this subcommittee brought to the 
table. If properly conducted, the upcoming broadband incentive 
auction will successfully free up a wide swath of valuable 
spectrum for new purposes. But with world-wide demand for 
wireless connectivity expected to grow 400 percent in the next 
three years, and given that the U.S. government is nowhere 
close to meeting the goal of repurposing 500 MHz as called for 
in the National Broadband Plan, it's clear we have more work to 
do.
    One way we can continue to free up additional spectrum is 
through use of the Commercial Spectrum Enhancement Act. Under 
the CSEA, commercial providers bear the cost of moving federal 
incumbents to clear spectrum. Given the budgetary pressures 
facing the country--and the significant challenges our defense 
agencies face as a result of fiscal belt-tightening--we have an 
opportunity to work together to optimize the value of 
underutilized spectrum and upgrade equipment and services used 
by federal agencies.
    Though there are many hurdles to overcome in clearing and 
reallocating federally held spectrum, we have proven it can be 
done to great success. The best example of this process is the 
recent AWS-3 auction, which made 65 MHz of spectrum available 
for wireless broadband and raised more than $44 billion.
    The AWS-3 auction worked. Now, let us move forward by 
giving agencies new tools that will allow them to become more 
innovative and efficient in how they use spectrum.
    Under current law, federal spectrum users receive 
compensation for relocating spectrum-based systems and can 
upgrade equipment to further their mission. Carriers get the 
opportunity to purchase a resource they desperately need, and 
above all, consumers will have better mobile broadband service, 
allowing them to access the services and information they so 
clearly want and need.
    Building on this successful process, today we are reviewing 
two pieces of legislation that will help move America forward. 
First, Representatives Guthrie and Matsui's Federal Spectrum 
Incentive Act allows interested agencies to take part in an 
incentive auction where they are compensated for relinquishing 
spectrum through auction proceeds. Currently, agencies are only 
allowed to be reimbursed for sharing or relocating--this 
legislation would incentivize agencies to take a hard look at 
their spectrum use and to give up the spectrum they don't need.
    We're also reviewing a bill that would require the FCC to 
report back to Congress with draft auction plans going forward. 
This legislation is intended to help establish a more 
consistent and predictable supply of spectrum going forward 
through a formal process between the Congress, the FCC, the 
NTIA, and other agencies.
    While the speed of innovation in technology is blindingly 
fast, the timeline for reallocating spectrum often is 
reflective of the tangled bureaucracy of government, and the 
fiscal and operational restraints on agencies. This conflict 
illustrates the urgent need for legislation to reform the 
federal system, bring about predictable and transparent auction 
rules, and provide clear incentives for agencies to free up 
underused, or unneeded, spectrum.
    We can move forward on this front while at the same time 
making sure agencies who rely on the resource for mission-
critical operations have the most modern communications 
technology available.
    I'd like to thank Ranking Member Pallone and Representative 
Clarke for working with us on this bipartisan discussion draft 
and I look forward to our continued collaboration. Working 
together we can provide the framework and incentives to 
increase efficiency, upgrade government systems, and make 
spectrum available to meet our country's wireless broadband 
demand.

    Mr. Latta. Well, I thank the chairman for yielding and this 
subcommittee has long recognized a demand for wireless spectrum 
capacity as technologically advanced products and devices are 
becoming an integral part of our everyday lives.
    In 2014, the number of mobile-connected devices exceeded 
the world's population. It is clear that in order to 
accommodate advanced mobile innovation we must examine every 
avenue to expand access to spectrum. That is why we are here 
today. The Federal Government is the largest single user of 
spectrum. Therefore, we have the challenging opportunity to 
make spectrum currently used by federal agencies available for 
commercial use.
    The discussion draft and Mr. Guthrie's and Ms. Matsui's 
bill before us today will begin the process to evaluate 
approaches that efficiently utilize spectrum. I am confident 
that industry experts and federal agencies can find a way to 
optimize the cyber real estate to the interest of all parties.
    In order to remain the world's leading innovator and ensure 
consumer demands, we must work together to utilize spectrum 
more efficiently.
    Mr. Chairman, I look forward to hearing from today's 
witnesses and I yield back.
    Mr. Walden. The gentleman yields back. Now at this time, 
the chair recognizes the ranking member from California, Ms. 
Eshoo, for opening comments. Good morning.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Good morning, Mr. Chairman. Thank you and 
welcome to the witnesses. We appreciate it.
    Mr. Chairman and members, I think it is important to take a 
moment to consider that Americans use 11.1 billion megabits of 
mobile data every day. That is an astounding number. That is 
equivalent to about 22.2 million hours of streaming standard 
definition moves.
    As our dependence on smart phones and tablets for mobile 
video and other bandwidths' intensive applications grow, so 
will our need for more licensed and unlicensed spectrum. So we 
need a plan; a spectrum pipeline for the future that fits with 
consumer expectations and also ensures a seamless user 
experience.
    According to a 2012 GAO report, federal agencies have 
exclusive access to about 18 percent of the most highly valued 
spectrum. A far larger percentage of spectrum is shared between 
federal and nonfederal users. Increasing the efficiency of how 
more than 60 federal agencies and departments use over 240,000 
frequency assignments, obviously, it is not an easy task. But I 
think it is one that our subcommittee should tackle and will 
tackle. We did it before and we are going to have it do it 
again.
    The Spectrum Pipeline Act of 2015 is an important step in 
this process. As the chairman said, building on the success of 
the AWS-3 Auction, the draft under discussion today calls for a 
plan for the reallocation or sharing of spectrum bands held by 
federal agencies and a time line, which is very important, for 
bringing the spectrum to auction.
    Recognizing that federal agencies operate very differently 
than commercial wireless providers, we also need a plan to 
incent federal agency participation. And that is why I am 
pleased to support Representatives Guthrie and Matsui's 
legislation as an original cosponsor because the bill directs 
itself toward accomplishing that. It will get federal agencies 
a direct financial incentive. Money always does it, almost 
always anyway--yes, it is the magic ingredient. It gives them 
the incentive to either terminate or share with other federal 
agencies their existing spectrum.
    More than three years ago, our subcommittee established a 
bipartisan working group to examine how the Federal Government 
can use the nation's airways more efficiently. We put a lot of 
time into it and it was time well spent. It was time well 
spent. So in pursuit of our shared goals and this is, I 
believe, a real bipartisan effort to deliver fast, reliable, 
wireless broadband service to all Americans. I want to thank 
the chairman and members of the subcommittee that have really 
put in time and thought, not only to the bills that we are 
going to talk about today, but the efforts that really got us 
to step up and prove that we can do it.
    So with that, Mr. Chairman, I will yield back the balance 
of my time.
    Mr. Walden. The gentlelady yields back the balance of her 
time. The chair recognizes the gentlelady from Tennessee, Ms. 
Blackburn, for 5 minutes.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman. I want to say 
thank you to the witnesses. We appreciate that you are taking 
the time and being here. It is an important topic. As you all 
know, it is not the first hearing that we have done on this 
issue.
    We know that spectrum is the lifeblood of the wireless 
industry. It is essential to connectivity. Ms. Eshoo was just 
talking about the amount of utilization of spectrum and the 
airways that are there.
    One of the things we hear from our constituents is the 
importance of this as an education and economic development 
issue and how the access is incredibly important to them and 
having the Spectrum Pipeline Act and Incentive of 2015 is 
something that is a good step. It is going to move us forward. 
If we are all reading the CTIA report properly, then we see we 
need to get to work on making certain that the 350 additional 
megahertz that are needed by 2019 are in the pipeline and that 
is what the usage is going to demand. So we do have some work 
to do. And at this time, I yield the balance of the time to Mr. 
Guthrie.
    Mr. Guthrie. Thank you. Thank you for yielding. I 
appreciate that and I am pleased to speak in support of 1641. 
It is a bipartisan bill that I reintroduced this year with my 
colleague from California, Ms. Matsui, Congresswoman Matsui. I 
always appreciate working together as co-chairs of the 
Congressional Spectrum Caucus and we hope to see this bill 
advance.
    I said before and I know my friend, Mr. Berenbroick, is 
from Radcliff in my district and I said before when I went 
around the 2nd District of Kentucky I never had a platform or 
sat up and said send me to Washington and I will deliver you 
spectrum. It was something that I didn't know I would get 
involved in until I got here. But how important it is and it is 
important to the 2nd District of Kentucky and people out in the 
country because whether you use it to browse apps or news 
articles on your mobile phone or you are a first responder just 
trying to get resources for an emergency situation, we all rely 
on it. And while we can't see spectrum, we know it is a limited 
critical resource for nearly every aspect of our daily lives.
    And in January, we saw a huge success with FCC's Advanced 
Wireless Services Spectrum Auction raising an unprecedented 
$44.8 billion. And I am hopeful we can achieve similar success.
    I want to thank Chairman Walden for bringing this important 
legislation before the subcommittee and I thank my friend, 
Congresswoman Matsui.
    One of the other great things about being on the Spectrum 
Caucus is making a great friend with Congresswoman Matsui and 
working together with her. So I appreciate it and I yield back 
my time.
    Mr. Walden. The gentleman yields back the balance of time. 
The chair recognizes the ranking member of the full committee, 
Mr. Pallone, for an opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman. I appreciate the 
opportunity to continue this subcommittee's conversation on 
spectrum policy. Spectrum policy is a bipartisan issue and I am 
proud of the bipartisan approach this subcommittee has been 
taking.
    As I have noted before, we are witnessing a mobile 
revolution. The consumers' insatiable demand for wireless 
service is a critical engine driving our economy. And this 
engine is powered by spectrum. Fortunately, Congress, the FCC, 
and the National Telecommunications and Information 
Administration, have been hard at work to meet this demand and 
keep the mobile economy moving forward. With support from this 
subcommittee, the FCC completed a record-shattering auction 
earlier this year that raised over $40 billion and we are all 
hoping for success in the upcoming incentive auction which was 
authorized by a law that came out of this subcommittee.
    So today, we will continue to drive the effort to free more 
spectrum. We are taking the next step to make sure consumers 
continue to reap the benefits of the mobile economy. Together, 
the pair of bills we are looking at this morning have the 
potential to establish a spectrum pipeline to meet consumer 
needs well into the future.
    Like the broadcast incentive auction, the Matsui-Guthrie 
bill would encourage federal users to either vacate their 
current spectrum or relocate to another band in exchange for a 
percentage of the auction proceeds. This bill demonstrates that 
innovative thinking in the tech sector is not confined to the 
private sector.
    I am also pleased for examining the bipartisan discussion 
draft offered by Representatives Clarke and Walden. This is an 
important effort that would require agencies to continue to 
think about additional innovative ways to expand commercial 
broadband. I want to commend Representative Clarke who, of 
course, is relatively new to the committee for her immediate 
and keen understanding of the importance of addressing 
spectrum.
    Together, these bills are the first step in authorizing new 
auctions that can help serve the skyrocketing mobile needs of 
consumers.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you, Mr. Chairman. I appreciate the opportunity to 
continue this subcommittee's conversation on spectrum policy. 
Spectrum policy is a bipartisan issue and I am proud of the 
bipartisan approach this subcommittee has been taking.
    As I've noted before, we are witnessing a mobile 
revolution. The consumer's insatiable demand for wireless 
services is a critical engine driving our economy. And this 
engine is powered by spectrum.
    Fortunately, Congress, the Federal Communications 
Commission, and the National Telecommunication and Information 
Administration have been hard at work to meet this demand and 
keep the mobile economy moving forward. With support from this 
subcommittee, the FCC completed a record-shattering auction 
earlier this year that raised over $40 billion. And we are all 
hoping for success in the upcoming incentive auction, which was 
authorized by a law that came out of this subcommittee.
    So today we will continue to drive the effort to free more 
spectrum. We are taking the next step to make sure consumers 
continue to reap the benefits of the mobile economy. Together, 
the pair of bills we are looking at this morning have the 
potential to establish a spectrum pipeline to meet consumer 
needs well into the future. Like the broadcast incentive 
auction, the Matsui-Guthrie bill would encourage federal users 
to either vacate their current spectrum or relocate to another 
band in exchange for a percentage of the auction proceeds. This 
bill demonstrates that innovative thinking in the tech sector 
is not confined to the private sector.
    I'm also pleased we are examining a bipartisan discussion 
draft offered by Representatives Clarke and Walden. This is an 
important effort that would require our agencies to continue to 
think about additional innovative ways to expand commercial 
broadband. I want to commend Representative Clarke, who is new 
to the Energy and Commerce Committee, for her immediate and 
keen understanding of the importance of addressing spectrum.
    Together these bills are the first step in authorizing new 
auctions that can help serve the skyrocketing mobile needs of 
consumers.
    Again, thank you, Mr. Chairman for keeping this 
subcommittee focused on spectrum in a bipartisan way. I'd like 
to yield the remainder of my time to Ms. Clarke.

    Mr. Pallone. Again, thank you, Mr. Chairman and Ms. Eshoo 
for keeping this subcommittee focused on spectrum in a 
bipartisan way and I would like to yield the remainder of my 
time to Ms. Clarke.
    Ms. Clarke. Thank you, Ranking Member Pallone. And I also 
would like to extend my gratitude to the chairman for this 
bipartisan effort. I am thrilled that we are discussing this 
bipartisan draft of the Spectrum Pipeline Act of 2015.
    As everyone knows here, the future is wireless. Our lives 
are more connected every day. It is not just our phones or our 
tablets. We are moving to a world of connected cars, connected 
homes, connected lives. I can see it clearly when I go home to 
Brooklyn. We have become one of the most tech savvy places in 
the country. Everyone has a device or two in their hands and 
the innovations coming out of start ups in my district are 
mobile and data hungry.
    It is our job to make sure that these consumers and these 
innovators have the spectrum they need. That is why I am proud 
of our efforts today, that bipartisan discussion draft that 
takes necessary first steps toward creating a spectrum pipeline 
to meet that challenge. I made sure to develop this bill to 
ensure that will have a steady flow of licensed and unlicensed 
spectrum to meet consumer needs and demands.
    I hope that this draft helps get the conversation started. 
I look forward to hearing ideas from my colleagues and our 
witnesses on how to improve the bill as we move forward. I 
thank you and I look forward to our continued bipartisan effort 
on this important issue. I yield back to the ranking member.
    Mr. Pallone. Mr. Chairman, I would like to yield the 
remainder of my time to Ms. Matsui.
    Ms. Matsui. Thank you very much for yielding me time, Mr. 
Pallone.
    Today, the subcommittee's focus is on how to improve the 
efficiency of federal spectrum users and free up spectrum for 
innovation and commercial use. The success of the AWS-3 Auction 
earlier this year highlighted the incredible demand for 
spectrum in the marketplace. Spectrum is our nation's invisible 
infrastructure of the 21st century. Making more spectrum 
available is essential to meet the demands of American 
consumers and to keep the United States as a world leader in 
the wireless economy.
    The Federal Spectrum Incentive Act, a bill that I am 
sponsoring with Congressman Guthrie, Chairman Walden, and 
Ranking Member Eshoo, is one of the proposals we are examining 
today. Our bipartisan bill creates a new approach to spectrum 
management by offering new incentives for federal users to 
relinquish or share spectrum. It would create the first ever 
incentive auction for federal agencies and allow federal 
spectrum users to share in the revenues from the auction.
    Last Congress, the committee reported the bill with strong 
bipartisan support. We need to continue to support additional 
solutions to put more spectrum in the pipeline. I look forward 
to working with all my colleagues to see this legislation 
become law. I yield back. Thank you.
    Mr. Walden. Thank you. The gentleman yields back the 
balance of his time, and the gentlelady yields back and I thank 
the gentlelady, both, all my colleagues for their work on these 
bills.
    We are going to go now to our witnesses. We want to really 
thank you all for coming. I have read your testimony. It is 
most insightful and helpful and we look forward to your sharing 
it with everyone and so we will start with Phillip Berenbroick, 
the counsel for Government Affairs at Public Knowledge. Sir, we 
are delighted to have you here. Pull that microphone fairly 
close. Make sure the light is lit and the floor is yours.

STATEMENTS OF PHILLIP BERENBROICK, COUNSEL, GOVERNMENT AFFAIRS, 
    PUBLIC KNOWLEDGE; JEFFREY H. REED, WILLIS G. WORCESTER 
  PROFESSOR OF ELECTRICAL AND COMPUTER ENGINEERING, VIRGINIA 
   POLYTECHNIC INSTITUTE AND STATE UNIVERSITY; AND DENNIS A. 
ROBERSON, VICE PROVOST, RESEARCH PROFESSOR IN COMPUTER SCIENCE, 
                ILLINOIS INSTITUTE OF TECHNOLOGY

                STATEMENT OF PHILLIP BERENBROICK

    Mr. Berenbroick. Good morning, Chairman Walden, Ranking 
Member Eshoo, Ranking Member Pallone, and members of the 
subcommittee. I am Phillip Berenbroick, counsel for Government 
Affairs at Public Knowledge, a public interest nonprofit 
dedicated to the openness of the internet and open access for 
consumers to lawful content and innovative technology.
    I will make two key points. First, it is critical for 
Congress to lay the groundwork for consistent, robust pipeline 
of spectrum. As Chairman Walden and Ranking Member Eshoo 
referenced, the demand for spectrum continues to grow. Congress 
should do so in a way that promotes more competition and 
choices for consumers, better service quality, lower prices, 
and greater innovation.
    Second, unlicensed spectrum has become critical for 
economic growth and permissionless innovation. Efforts to 
increase available spectrum should strike a balance and 
increase the amount of spectrum available for unlicensed use.
    Turning to my first point, critical missions across the 
government depend on federal spectrum including early warning 
missile systems and air traffic control systems. At the same 
time, America's broadband providers, consumers, innovators, and 
new technologies are demanding more and more spectrum. This is 
why we encourage Congress, along with the federal agencies 
responsible for spectrum allocation, the National 
Telecommunications and Information Administration, and the 
Federal Communications Commission, to work together to devise a 
consistent and reliable spectrum pipeline that can meet this 
growing spectrum demand.
    Public Knowledge supports policy initiatives that enable 
federal users to accomplish their critical missions in a manner 
that also maximizes opportunities for spectrum sharing or 
relocating federal users to enhance federal availability for 
commercial competition and innovation. If done thoughtfully and 
in collaboration with Congress, agencies and other 
stakeholders, creative solutions to increase spectrum 
availability have the opportunity to be a rare win-win-win in 
public policy.
    The first win is freeing up additional spectrum for mobile 
broadband use to meet the increasing demand on our wireless 
networks; second, by encouraging more efficient federal use of 
scarce public resources; and third, by expanding the amount of 
spectrum available for innovative, unlicensed uses like next 
generation Wi-Fi networks.
    Legislation under consideration by this committee is a good 
start. Public Knowledge supports HR 1641, sponsored by 
Representative Guthrie and Representative Matsui. Providing 
financial incentives for federal spectrum users to relocate 
from their existing bands is a creative way to free up much 
needed spectrum for commercial users and unlicensed innovation.
    Public Knowledge also supports the goals of the 
subcommittee's discussion draft legislation to lay the 
groundwork for the FCC to engage in long-term planning on 
relocating federal users from various spectrum bands, 
auctioning the cleared spectrum, and finding a balance between 
licensed and unlicensed uses.
    Turning to the importance of unlicensed spectrum, the 
economic activity and consumer benefits derived from mobile 
broadband use are immense. Today, a majority of mobile device 
traffic is offloaded onto fixed broadband networks via Wi-Fi 
and that traffic only continues to grow. Unlicensed spectrum 
has democratized internet access and encouraged permissionless 
innovation. The value unlicensed spectrum contributes to the 
U.S. economy is estimated to exceed $220 billion annually. 
Unlicensed uses of spectrum include more than just Wi-Fi. 
Unlicensed frequencies are open for any person and any device 
to use, for any legal purpose. Uses include cordless phones and 
baby monitors, Bluetooth, radio frequency identification or 
RFID which is used for making mobile payments for paying tolls 
on highways and tracking baggage in transit. Unlicensed 
frequencies are also necessary for connecting the burgeoning 
internet of things which Representative Clarke has referenced.
    Given the enormous benefits of unlicensed spectrum, any 
legislative effort to increase the licensed spectrum pipeline 
should also expand the amount of spectrum made available for 
license-exempt use. One option would be to create a cut for 
unlicensed spectrum in newly freed up bands. Commissioner 
Rosenworcel has called this the Wi-Fi dividends. And to open up 
even more spectrum for unlicensed use, Congress may consider 
opportunities to allow for unlicensed sharing of bands where 
federal users reside including asking the FCC to examine the 
possibility of an unlicensed underlay while establishing 
mechanisms to protect critical bands and prevent interference.
    Thank you to the members of the subcommittee for your time. 
I look forward to the opportunity to answer your questions.
    [The prepared statement of Mr. Berenbroick follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Walden. Mr. Berenbroick, thank you for your testimony 
and your support of our efforts. We appreciate it as always.
    Now we go to Jeffrey H. Reed, the Willis G. Worchester 
Professor in--OK, forget that. We will now to Dennis A. 
Roberson, Vice Provost, Research Professor in Computer Science, 
Illinois Institute of Technology. We welcome you, sir. Please 
pull that microphone close. Make sure the light is lit and the 
floor is yours.

                STATEMENT OF DENNIS A. ROBERSON

    Mr. Roberson. Good morning, Chairman Walden, Ranking Member 
Eshoo, and members of the subcommittee. Thank you for the 
opportunity to participate in this vitally important discussion 
on the management and usage of federal spectrum and related 
systems.
    As chairman of the FCC's Technological Advisory Council, I 
can assure you that there is no more pressing issue than 
spectrum use and management. Through the council's expertise 
and multi-stakeholder processes, the Technological Advisory 
Council, along with the Department of Commerce Spectrum 
Management Advisory Committee, where I also serve, have become 
ground zero for many of the core spectrum policy issues that 
challenge us today.
    As these challenges and future issues arise, we must be up 
to the task of understanding the data behind spectrum usage and 
to develop forward-looking technologies and policies designed 
to optimize the most efficient use of spectrum. Such 
optimization has been the technical focus and a personal 
passion over the course of much of my career, whether it was as 
Motorola's Chief Technology Officer, or in my current role as 
Vice Provost for Research at Illinois Institute of Technology 
and as President and CEO of a technology and management 
consulting firm.
    With few minor exceptions, our nation's spectrum resources 
have, for decades, been fully allocated for various government 
and commercial applications. Given this reality, the only way 
to expand existing applications and support the introduction of 
next generation technology is to either clear and relocate 
spectrum or to share it.
    The proposition of clearing spectrum, federal or otherwise, 
is an increasingly daunting task involving the identification 
of applications in spectrum that can either be relocated or 
terminated, negotiating and finding the financial means to 
support relocation costs or to pay the incumbents for service 
termination, and establishing the plans and estimating the time 
it will take to accomplish this transition.
    The so-called millimeter wave band, a spectral area above 
30 gigahertz and extending to 60 plus gigahertz, is an area 
where significant quantities of cleared spectrum seem feasible 
today. The propagation characteristics of this spectrum pose a 
huge challenge, but research into the application of new 
technologies, massive, multiple input, multiple output, antenna 
arrays, show great promise, especially for this millimeter wave 
band and should certainly be encouraged as well as supported 
financially.
    The process for sharing spectrum is notoriously slow. 
However, things can happen at a faster pace, if and onlyif the 
new user is able to share the spectrum in such a manner that 
the incumbent experiences little to no actual harm or 
perceivable impact from the presence of the new service, or if 
the harm is outweighed by the benefits flowing from shared use 
of the spectrum.
    There are several emerging classes of spectrum-sharing 
opportunities the committee should be aware of. Satellite 
spectrum, similar to the spectrum liberated in the AWS-3 
Auction can be shared and reapplied to terrestrial use. Radar 
and communication spectrum can be shared, especially for 
lightly used weather radar bands, the 2.7s, the 2.9 gigahertz 
band and radar altimeters at the 4.4 to 4.6 gigahertz band. Bi-
directional sharing which would, among other things, enable the 
government to employ lightly used or unused commercial spectrum 
when they need it for government activities such as DOD tests. 
And satellite spectrum allocations around the GNSS band that 
would efficiently be used for terrestrial purposes.
    We cannot make more spectrum, but we can utilize spectrum 
more efficiently. The key point in all of this is that nearly 
all spectrum that is not currently being fully utilized can 
technically be used with spectrum management policies that are 
forward looking and driven by efficient use. The emerging use 
cases of these particular spectrum frequencies will enable the 
rapid transition to next generation technologies like 5G, 
thereby maintaining the U.S. leadership in cellular technology 
deployment.
    Eight years ago, I set up the world's first spectrum 
observatory in Chicago where we looked at how heavily 
particular spectrum and frequencies are being used over a 
period of time, down to the second level. Wide-scale deployment 
of similar spectrum monitoring equipment in high spectrum usage 
environments could help policy makers identify spectrum for 
either clearing or sharing.
    In conclusion, we have also learned that another major 
challenge to efficient spectrum use is receiver designs that 
promote inefficient spectrum use. Poorly designed receivers 
have a huge impact on spectrum availability and adjacent bands 
encouraging industry to adopt its own standard-setting methods 
for receivers will open the door to technological advances that 
can potentially produce billions of dollars of GDP growth while 
also creating significant spectrum efficiency.
    Thank you for your prioritization of this critical issue. 
And I look forward to your questions.
    [The prepared statement of Mr. Roberson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Walden. Mr. Roberson, thank you for testimony. I intend 
to follow up on the issue of sloppy front ends and receivers 
when we go forward.
    We go now to Jeffrey H. Reed of the Willis G. Worcester 
Professor of Electrical and Computer Engineering, Virginia 
Polytechnic Institute and State University. Dr. Reed, we are 
delighted to have you here. Please go ahead.

                  STATEMENT OF JEFFREY H. REED

    Mr. Reed. Thank you, Chairman Walden and Ranking Member 
Eshoo and the subcommittee for the invitation to speak before 
you.
    My goals are to address some of the key trends and emerging 
technologies that are impacting spectrum management and to 
discuss how R&D can make spectrum availability easier, how we 
can transition that spectrum in a much quicker way by doing the 
upfront R&D.
    We all know that wireless traffic is growing very quickly. 
Sysco projects that the volume of wireless traffic will 
increase by a factor of 7X between 2014 and 2019. And there are 
reasons for this growth projection. There is a whole set of new 
applications that are just around the corner, applications such 
as augmented reality, where you get a super position of 
computer-generated images in your field of view. I would like 
to call it just-in-time learning and the ability to be able to 
do complex tasks through augmentation; ambient intelligence 
that predicts the way that we will use things; and telemedicine 
and elder care, huge benefits in having wireless technology for 
these particular areas. Being able to compensate for cognitive 
impairments, being able to keep people in their homes safely 
for a longer period of time. This is going to be made feasible 
by using wireless technology.
    There is a whole bunch of new technologies that will help 
us to achieve this goal of greater wireless traffic, things 
such as small cells, miniature bay stations, bay stations that 
20 years ago would have cost $1 million, now $200 bucks at Best 
Buy. Higher frequencies, higher frequencies like Dennis 
Roberson talked about, offer the potential of providing huge 
amounts of bandwidth. And then there are two technologies that 
I think are particularly relevant, spectrum sharing, which we 
are starting to see in AWS-3 as well as the 3.5 gigahertz band. 
And another one that is probably not quite as appreciated and 
that is software-based infrastructure. The basic idea behind 
this is that we digitize the signal with the antenna and we 
ship over fiber to the cloud to do processing. And that is 
going to have some major ramifications on the way that we can 
manage spectrum. It is going to enable sharing, both of federal 
spectrum and of commercial spectrum for federal users.
    This is also going to allow us to greatly reduce cost and 
add flexibility.
    So the role of R&D to speed this transition will--actually, 
I have been very encouraged by the way that policy has 
proceeded in the past few years. Changing spectrum policy has 
always been known to be incredibly slow and if you look back 
over the past few years some amazing things have happened. 
However, I think we can do better. And I think we can do better 
and be more prepared for this transition by doing our upfront 
R&D. For example, AWS-3 transition was very successful in 
bringing in revenue. But I think it could have been better. And 
the reason is that there are still unknown issues on how the 
commercial systems and the federal systems are going to coexist 
with each other. Those are R&D issues that should have been 
worked out beforehand. And the same with the 3.5 gigahertz 
transition. Things could have gone smoother if we had done more 
upfront R&D about the channel characteristics. The FCC 
struggled in their Notice of Proposed Rulemaking to get this 
information.
    And in both cases, it delayed the transition of that 
spectrum, so I have a number of recommendations and I am 
running out of time. I think the key recommendation is to put 
funding into upfront R&D to make these bands easy to 
transition, quicker to transition. We have to do it anyway, so 
we might as well do it up front. And if you remove the risk, 
then we will be able to transition these bands quicker and we 
will be able to perhaps even save more money for the Federal 
Government because risk causes a discount in the pricing of 
that spectrum.
    So in conclusion, I encourage more forward leaning in the 
planning and the R&D and this will shorten the transition times 
to make this valuable economic resource available to us.
    [The prepared statement of Mr. Reed follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
    Mr. Walden. Thank you, Dr. Reed. We appreciate your 
testimony, as well as that of your colleagues at the dais. It 
is very interesting, the suggestions you come up with, the work 
that you all have done to look at other spectrum.
    And I guess the question I would have and some of you lay 
out some suggestions in your testimony, if you could give us 
some counsel on the specific bands we should be focused in on.
     And I know, Mr. Roberson, in some of your research in 
Chicago, it is graphically evident what is in use and what is 
not because we have limited time and resource, too, and we have 
proven that we can bring agencies and private sector together 
and work out some of the differences.
    I agree with Dr. Reed on the notion of R&D in advance. It 
gives you certainty before you go into the auction which could 
raise its value therefore. So that is something we will take a 
look at, too.
    Can you give us some suggestions or can get back to us, Mr. 
Roberson?
    Mr. Roberson. I would be delighted to. Actually, if we 
could bring up the screen that we had earlier?
    Mr. Walden. We have enough spectrum capacity, I am sure we 
can do that.
    Mr. Roberson. What you may have noted as I delivered my 
remarks----
    Mr. Walden. Could you explain that?
    Mr. Roberson. That is what I was going to do very quickly. 
I mentioned the world's first spectrum observatory in Chicago 
and what you are seeing is the live feed from that observatory. 
So this is the spectrum usage in Chicago at this minute.
    Mr. Walden. Right there.
    Mr. Roberson. Right there. And what you can clearly see, 
this is power versus spectrum. The spectrum starts at 30 
megahertz which is just below the low end of the TV band and 
runs to six gigahertz which is just above the 5 megahertz part 
of the----
    Mr. Walden. So for lay people, give me an idea. It kind of 
does the up and down there and then goes across kind of flat. 
Is that satellite band?
    Mr. Roberson. Right. The flat parts are all the areas where 
to your earlier question where we should be investigating. I 
will apologize for the bit of a rise at 3 gigahertz. That is an 
artifact.
    Mr. Walden. OK.
    Mr. Roberson. But the elements that you see going up and 
you can see television and FM radio and the like and the 
cellular bands and so on, but you see large areas from 1 
gigahertz to 1.7 gigahertz where there is very little activity. 
You can see other bands, 2.7 to 3.0 in the middle of the chart 
and I know that the numbers are so small you can't quite see 
them. But there is a blank area there. And as you go out, 4 
gigahertz, particularly 4.2 to 4.4 I call out as areas where 
investigation would certainly yield----
    Mr. Walden. And what would be on those bands today?
    Mr. Roberson. The bands, there are a variety of things in 1 
to 1.7, but there is satellite activities in those bands, some 
radar. In 2.7 to 2.9, this is the weather radar bands. In 4.2 
to 4.4 is radar altimeters for airplanes which you would not 
normally think of as an opportunity band, but since those 
radars are only used during landing and takeoff and we know 
where all the airports are and we know where the airplanes are, 
so the opportunity to utilize that spectrum carefully is 
another significant opportunity area. And there are others.
    Mr. Walden. And given the issues with the latest hurricane 
and others and the discussion about adequate satellite coverage 
for weather event prediction, your point isn't that you blow 
all that off the airplanes?
    Mr. Roberson. No, no, no.
    Mr. Walden. Your point is that there is not much data 
coming up and down and we can actually share. Is that right?
    Mr. Roberson. Exactly right. In all cases, I am really 
suggesting sharing, not to clear. And that is a huge 
opportunity. When you think about satellites that are operating 
in the vertical direction and terrestrial use which is 
orthogonal direction, you have an opportunity to share these 
bands, not in any way impacting----
    Mr. Walden. Existing----
    Mr. Roberson [continuing]. Existing uses.
    Mr. Walden. I want to shift to one of my pet peeves and 
that is uh-oh, we just had a flood. We will get some help here. 
But meanwhile, receivers. What is it that you recommend could 
be done here to get better built, better engineered receivers? 
This has been a long-time problem. And we don't want to mandate 
standards per se, but boy, I would like to see more skin in the 
game on the receiver side than what we see today.
    Mr. Roberson. Perhaps I could jump on that one since I 
called it out. My very good friend, Dale Hatfield, has been 
working on this problem for approaching 50 years which is 
incredible, but it has been a problem for a very, very long 
time.
    The new elements that provide opportunity in this area are 
two. First, the opportunity for industry to take the lead and 
to self-govern itself, but place the requirement that industry 
do so. You rightly speak to the point that government should 
not, no one should dictate the way a receiver is designed. But 
dictating the requirement for having the industry itself self-
govern is a good direction.
    A second one that has actually come out the work in the 
Technological Advisory Council is something called the 
interference limits policy which establishes a harm's claim 
threshold where if you are, as a transmitter, if you are above 
that threshold the transmitter needs to fix itself.
    Mr. Walden. Come back down. Right.
    Mr. Roberson. If it is below that and the receiver is 
experiencing interference, the receiver has to be fixed. The 
beauty of this is it establishes a bar because today the 
debates are endless on what is harmful interference.
    Mr. Walden. We went through this with Light Squared GPS. Is 
somebody listening in? Is it going to be too much power? Back 
and forth, back and forth. But you all are smart enough to 
figure out a----
    Mr. Roberson. And there is no bar. And this would establish 
the bar.
    Mr. Walden. Right.
    Mr. Roberson. And with that bar and a measurable bar, you 
can now determine whether, who needs to remedy the situation.
    Mr. Walden. Unfortunately, we have a bar and it is 
measurable and I have exceeded it by a minute and 37 seconds. 
So I thank my colleagues for the indulgence. We will go to the 
ranking member from California, Ms. Eshoo.
    Ms. Eshoo. Thank you, Mr. Chairman. But it was worth the 
extra minute and 38 seconds in terms of what we just heard.
    To each one of you, thank you for your excellent testimony. 
It is really highly instructive and it is most helpful to us 
when you target specific areas of recommendations to us. It 
really is most helpful to us in shaping a work product to 
address it.
    Thank you, Mr. Berenbroick, for your attention to 
unlicensed spectrum. I don't think anyone has come here and 
given testimony concentrating so much on unlicensed and the 
importance of it. So I appreciate it very, very much.
    One of the aspects that appears to be, I think, missing 
from the bills under consideration today is the role that the 
Spectrum Relocation Fund can play in promoting new research and 
development. And you raised R&D and placed a heavy emphasis on 
it. It is one of the most important undertakings regardless of 
what area we are in, but certainly as it applies to what we are 
talking about today, so it can play, I think, a really key role 
in promoting new--advancing more research and development.
    In an August 31st letter, the OMB recommended removing some 
of the restrictions on this fund that prevent funds from being 
used for R&D, spectrum planning, and pilot projects. Do you 
agree that increased agency flexibility would enhance our 
efforts--I am teeing this up for you--would enhance our efforts 
to free up additional licensed and unlicensed spectrum and 
promote greater efficiency? That is to all of you.
    Mr. Reed. Well, maybe I can go ahead. I certainly agree 
with that recommendation. I know of no one who disagrees with 
that recommendation within the spectrum community. We should be 
focusing the funds on solving the problem, not associating with 
the specific interests. We made R&D funds available to the 
transition after the sale of the band. It is like buying your 
product and then deciding to do the R&D.
    Ms. Eshoo. I understand. Do you know how much money is in 
this fund?
    Mr. Reed. I think it is around $500 million. It is quite a 
bit.
    Ms. Eshoo. That is a good pot. Mr. Roberson?
    Mr. Roberson. No, I also strongly agree with the points 
that Mr. Reed has made and believe that it is essential to do 
the work in advance and in fact, exploring taking off the 
testimony already provided, with the bands that can be 
identified through the ability to see the spectrum. Several 
members made the point that this is invisible spectrum. Well, 
it actually isn't invisible for those of us with 
instrumentation.
    Ms. Eshoo. Yes, you showed that on the chart.
    Mr. Roberson. Exactly. And we can use that to identify 
bands that have potential. But there is a need for funding for 
the researchers to then take the next steps and to really 
understand the parameters to allow that----
    Ms. Eshoo. I don't know whether this belongs in the Matsui-
Guthrie legislation or the other, but I think that this is 
something for us to pay attention to.
    Mr. Berenbroick?
    Mr. Berenbroick. Thank you. Yes, I think we are all in 
agreement. We would like to see creative and innovative ways 
that make federal spectrum users more efficient. That way it 
can facilitate spectrum sharing or in ways to facilitate 
relocating those federal users to free up that spectrum for 
both licensed and unlicensed uses. That is one of the reasons 
why we support H.R. 1641 and we support the ideas you mentioned 
as well.
    Ms. Eshoo. That is great. Mr. Roberson and Dr. Reed, you 
were both members of the PCAST, weren't you?
    Mr. Reed. Yes, we were.
    Ms. Eshoo. Have we made any real progress in your view in 
implementing the recommendations? I thought it was an 
extraordinary report. I know you put and all the members put a 
great deal of time and effort into it. And we thank you for it. 
In some ways, I think it is under appreciated. But do you think 
that--tell us what you think we have not harvested from that 
that fits with what we are discussing today?
    Mr. Reed. Yes, I think we have made great progress since 
that report. The 3.5 gigahertz band, I think is a great example 
of that. The FCC pretty well followed the recommendations of 
the PCAST committee and how to structure it. I think we could 
have done it faster if we had known some basic principles. Here 
is the basic principle. If you have a transmitter over here 
with so much power, how well will that be received inside of a 
building some distance away? I mean that is pretty fundamental.
    Ms. Eshoo. It is.
    Mr. Reed. But yet, at that band, there wasn't very much 
information on that. It should have been done beforehand.
    Ms. Eshoo. Beforehand. Mr. Roberson?
    Mr. Roberson. Yes. I would agree that there has been a 
great deal of progress in the PCAST report. Jeff and I had the 
opportunity to write a fair amount of that. So----
    Ms. Eshoo. I read it. I read it all very carefully.
    Mr. Roberson. Well, good. There are things though that have 
not yet been really touched, although they have been talked 
about. The wireless model city, the test city that was 
described in the report really has had discussions, but no 
action taken at this point.
    The subject of the bill providing stronger incentives was 
another item in the policy proposal that has as yet although I 
am delighted to see the work going on here, it is a very 
intractable problem, but it still needs more work.
    Ms. Eshoo. Thank you very much to each one of you.
    Mr. Walden. I thank the gentlelady. Thank you, gentlemen. 
And let us go now to Mr. Latta, the vice chair of the 
Subcommittee on Communications and Technology. The floor is 
yours.
    Mr. Latta. Well, thank you, Mr. Chairman, and to our 
panelists, thanks very much for being here.
    And Professor Roberson, if I could start with the 
questioning for you, a 2011 GAO report found several flaws in 
the spectrum management and use monitoring practices of the 
NTIA. At the time GAO made three recommendations to improve 
NTIA's oversight of agency spectrum use, one of which remains 
open, the development of a strategic plan.
    Do you believe that there are areas for improvement in the 
NTIA's practices?
    Mr. Roberson. There are always areas of improvement for all 
of our practices, but particularly in this area. One of the 
things that is needed and I will really go back to the spectrum 
observatory capability, the practice out of NTIA is to solicit 
from the users of spectrum their usage models, then to 
correlate, collate those and thereby predict the usage across 
the country as opposed to independently assessing that use of 
spectrum. And that is a huge flaw. If you are asked are you 
using your spectrum? If the answer is no, I am going to take it 
from you, there is a pretty easy answer that comes back from 
that sort of assessment. And that is the difficulty in a very 
high contrast way with the approach that NTIA is able to use at 
this point.
    Mr. Latta. Let me follow up with how have the tools like 
their Federal Government spectrum compendium improved our 
ability to review and assess the spectrum use? Are you familiar 
with that?
    Mr. Roberson. I couldn't----
    Mr. Latta. How have their tools like the Federal Government 
spectrum compendium improved our ability to review and assess 
the spectrum use?
    Mr. Roberson. You are speaking to spectrum observatory data 
that we collect. I think that is what you are asking.
    Mr. Latta. OK.
    Mr. Roberson. It has been actually enormously helpful 
because not only do we have the screen that you have seen, but 
we have kept the compendium that you are talking about. We have 
eight years' worth of data for Chicago, so we not only know how 
it is being used today, but we know how it has been used for 
the last eight years. We have begun to expand that and in fact, 
we have a spectrum observatory that is resident on Dr. Reed's 
campus, so we are able to observe the usage there and again, 
capture the data over an extended period of time. So that 
enables us to look at the spectrum, to identify the places 
where spectrum is ill-utilized and then begin the process of 
researching that spectrum and how it could be better utilized. 
And we are able to do that.
    Often there are critics that say oh, yes, you looked at it 
this time, but if you had looked at it three months earlier, it 
was heavily utilized. Well, in our case, if you want to look at 
three months earlier, we will go back and look at three months 
earlier or any time in the last eight years we will look at how 
that spectrum was used. And that is a powerful tool in being 
able to really understand the spectrum opportunities that 
exist.
    Mr. Latta. Thank you. And this is a question to all 
panelists and so with my remaining minute and 45 here if you 
could answer briefly. Do you think federal agencies have the 
right incentive to utilize spectrum as efficiently as possible? 
And if not, what incentives motivate federal agencies to 
utilize spectrum more efficiently?
    Mr. Berenbroick. Thank you for the question. To touch on 
the question you just asked Mr. Roberson for just one second 
before I answer, Public Knowledge actually produced a white 
paper in 2010 on possible improvements to federal spectrum. I 
am happy to submit that for the record and we will do that 
after the hearing.
    Mr. Latta. Thank you.
    Mr. Berenbroick. On the question of incentives, right now I 
think it is TBD regarding whether agencies have the right 
incentives right now. I think we would like to see more 
incentives. We would like to see innovative incentives to help 
those agencies find ways to (a) use their spectrum more 
efficiently; and (b) find ways to consolidate their spectrum 
use. That way spectrum resources can be either reallocated for 
commercial use and unlicensed use or they can be shared using 
more efficient technologies in the band. That is why we are 
supportive--we mentioned the Spectrum Relocation Fund issue 
earlier with Ranking Member Eshoo. And we are supportive of the 
legislation H.R. 1641 and we support the FCC which the 
discussion draft would do. We support the FCC having the tools 
to take a look at bands and figure out how to make usage more 
efficient.
    Mr. Roberson. The incentives are not there today. To me, in 
short form, probably one of the best incentives is to do the 
upfront research so that agencies can be assured that they can 
complete their mission in an alternative way.
    Today, the real fear isn't that the agencies want to hoard 
spectrum or anything like that. They are simply trying to 
accomplish their mission. And without the upfront research to 
know how they can accomplish their mission in an alternative 
way with alternative spectrum, they loathe to give up that 
spectrum.
    Mr. Reed. Maybe I could comment on that one as well? I 
think that incentives can help and incentives may also be 
beneficial to flow to commercial companies. What bothers the 
agencies is they don't know how to proceed. They don't know 
what technology they can use to substitute for the technology 
that they have now. And if we do the upfront R&D, then industry 
will know, they will be able to develop the products so that 
the federal users won't fear transition. They will embrace it 
because they will see that in the end they will have a better 
system.
    Mr. Latta. Thank you, Mr. Chairman. My time has expired and 
I thank you for the indulgence.
    Mr. Walden. You are more than welcome. We appreciate the 
comments from the witnesses and your questions.
    We will now go to Mr. Pallone of New Jersey for 5 minutes.
    Mr. Pallone. Thank you, Mr. Chairman. The U.S. has led the 
world when it comes to fourth generation wireless technologies 
and as consumers start looking ahead to new fifth generation 
technologies, we need to ensure the U.S. continues to be a 
front runner.
    So I wanted to ask both Dr. Reed and Mr. Berenbroick what 
we can do help the U.S. remain a leader in next generation 
wireless technology?
    Mr. Reed. Certainly to be out there in front we need to do 
the basic R&D. That is obvious. But perhaps less obvious is 
what we are doing here today. Actually, I think what you are 
doing is quite valuable for 5G because everyone that I know of 
within the research community is expecting that 5G will 
incorporate spectrum sharing. And because of the changes in 
policies that we have been going through over the past few 
years, this is positioning us quite well. It is growth through 
good policy.
    Mr. Pallone. All right. Mr. Berenbroick?
    Mr. Berenbroick. So how to enable 5G to keep us ahead of 
the rest of world. First, I think as Dr. Reed mentioned, what 
this committee is doing is exactly what we should be doing 
which is to think about creative ways to find additional 
spectrum for both licensed and unlicensed uses and also to have 
conversations about how to improve spectrum efficiency and 
spectrum sharing. Like the transition from 3G to 4G, the 
transition from 4G to 5G will increase traffic on our wireless 
networks which will necessitate the need for more licensed 
spectrum.
    Likewise, the more spectrum we have traveling on our 
licensed networks will result in more offload to our unlicensed 
networks to Wi-Fi. So we need more spectrum set aside for 
unlicensed use as well.
    Mr. Pallone. All right, thanks. And we have more and more 
consumer data traveling over unlicensed airways, but unlicensed 
spectrum is more than just a boon to consumers. It also drives 
innovation and significantly contributes to the U.S. economy. 
Some estimate that it gives a $220 billion boost to the economy 
every year.
    Earlier this year, FCC Commissioner Jessica Rosenworcel 
proposed that Congress create a Wi-Fi dividend to account for 
these benefits.
    And I wanted to ask Mr. Berenbroick, in your testimony you 
say that a Wi-Fi dividend may be a good idea. Can you explain 
more about this and the other options for increasing spectrum 
for unlicensed use?
    Mr. Berenbroick. Sure. So I referenced Commissioner 
Rosenworcel's testimony before a Senate Commerce Committee 
where she mentioned the idea of the Wi-Fi dividend. The idea 
there would be that when we look at spectrum to free up for 
licensed use, we also think about spectrum to free up for 
unlicensed use. The rationale is that the traffic that comes 
over licensed networks, much of that will eventually be 
offloaded on to unlicensed networks, and so you need those two 
systems to work together in concert.
    I think you are exactly right when you mention the economic 
benefits of unlicensed spectrum. Like you mentioned, $220 
billion in yearly economic activity. But that is only part of 
it. You are also talking about making a bet on the future with 
unlicensed. Unlicensed, we are looking at the internet of 
things.
    We are looking at billions of devices connected to the 
network, the ability of anyone to plug in, the ability of 
anyone to plug in and to develop a device, develop a product at 
relatively low cost and to get it on to the network and to 
create a market for that product. So the economic benefits, I 
would imagine, are somewhat under estimated by the $220 
billion, at least going forward in the future.
    Mr. Pallone. All right. I have one more question for you. 
Earlier this week, Politico had a story chronicling the 
difficulty we face in getting credit in the budget for revenue 
generated by spectrum auctions. I know you are not an expert in 
federal spectrum valuation, but can you elaborate on the value 
to consumers that comes from the reallocation of additional 
spectrum?
    Mr. Berenbroick. Yes. So I saw the same article that you 
referenced and let me preface, I am not an expert on budget 
policy or CBO scoring, but we were--the unlicensed community is 
disappointed to see that unlicensed spectrum and the economic 
benefits of unlicensed spectrum are not really considered by 
CBO. And so we would be happy to work with Congress, work with 
other stakeholders to figure out how to address that issue to 
make sure that allocating more spectrum for both licensed and 
unlicensed uses is made possible and that the CBO scoring issue 
doesn't continue to be a roadblock.
    Mr. Pallone. Thanks a lot. Thank you, Mr. Chairman.
    Mr. Walden. Thank you, Mr. Pallone. We appreciate your 
questions. We will now go to Mr. Shimkus from Illinois and have 
at it.
    Mr. Shimkus. Thank you, Mr. Chairman.
    Mr. Walden. Welcome.
    Mr. Shimkus. Doctor, you better be careful for claiming 
that we are going growth. There is growth through good policy. 
You are in Washington and really nothing good is happening here 
these days. So you may not--yes, yes. I will try to reiterate 
that. I don't know if my constituents will agree, but we 
appreciate those positive words. Thank you.
    Besides-- let me go where I want to go here. What are the 
benefits of a long term spectrum planning and a consistent 
pipeline? If we could just go from left to--my left, your 
right.
    The business argument is that obviously to have to have 
consistency and you have got to be able to plan and execute, so 
what do you see the benefits of this?
    Mr. Berenbroick. This was mentioned in the opening 
statements by some of the other witnesses. The process by which 
we have typically allocated spectrum for commercial uses and 
for unlicensed uses has typically been a relatively slow 
process. We find a band that we want to relocate. We have to 
figure out how to move the user off of that band. We take the 
time to auction that band and then new services start to 
deploy.
    And so I think some estimates, I think the PCAST report 
said it was about a decade from identification to deployment. 
That is slow. I think we would all like to see that process 
move faster. So that said, I think the discussion draft bill 
that the commission has put forward or that the subcommittee 
has put forward is actually very helpful. It asks the FCC to do 
that forward planning. And so finding that pipeline spectrum 
where we can figure out which bands and which uses go into 
those bands and to move forward with that quickly that is an 
incredible useful exercise. That way, all stakeholders can 
think about what is next, what do we need, what is coming?
    Mr. Shimkus. Great. Mr. Roberson?
    Mr. Roberson. Yes, the nature of spectrum use is a long 
game activity. It is measured in decades. Therefore, there is a 
need for a strategic plan that stretches out to an 
unprecedented length in the way business operates and even the 
way things operate in Washington where we are planning what we 
are going to do in spectrum 25 years from now.
    So having the data, I keep hitting on that point, that 
would support our direction, and then putting together the 
strategic plan that would position different spectrum usage 
even as it allows for innovation and new things that were not 
anticipated when the plan was put in place first is really 
critical and something that this body could do great service to 
the country by pushing it.
    Mr. Shimkus. Thank you. Dr. Reed.
    Mr. Reed. I think it is very important to be consistent and 
forward looking in spectrum from a business perspective. 
Businesses, in fact, I have talked to VC about this. Sometimes 
VC don't want to hear it if it is a communications issue that 
requires some sort of regulatory aspect of it because there is 
so much uncertainty that is involved in it. If we have 
consistency in our spectrum policy, and with a plan, then 
businesses are more likely to be funded.
    Mr. Shimkus. Great. Professor Roberson and Dr. Reed, you 
are both members of I think I pronounced this right, CSMAC or 
CMA or whatever it is called.
    Mr. Reed. Both of them.
    Mr. Shimkus. A federal advisory committee comprised of 
spectrum experts that provide advice and recommendations to 
NTIA.
    Mr. Berenbroick, your colleague at Public Knowledge is a 
member as well, I believe. He is back there hiding. Can you all 
discuss the current role that the committee and where you see 
it being most useful in the examination of federal spectrum use 
and are there ways to further and better take advantage of the 
expertise that is on this board?
    Mr. Roberson. I guess I can take that one because I am 
actually the ranking member of this body on that particular 
committee. It is an excellent committee in terms of expertise, 
in terms of the multi-stakeholder nature of the group. Many 
ideas are brought to that committee. There are strong papers 
that are put forth. It is still a slow process though. And 
expediting that process, giving more problems to that body to 
sink their teeth into and to execute on is a very good thing. 
NTIA, Department of Commerce certainly do that, but I think 
they would be more than open to the questions that this body 
would have to be brought to them.
    Mr. Shimkus. It sounds like governmental, slow and 
methodical. But I appreciate it. Thanks.
    Mr. Walden. The gentleman's time has expired. We now go to 
a gentleman from Vermont. He is not here, Mr. Welch. Ms. 
DeGette is not here. Ms. Clarke, I believe you are next.
    Ms. Clarke. Thank you very much, Mr. Chairman. Dr. Reed, in 
your testimony you spoke of for the sake of efficiency it being 
necessary to invest in up front due diligence. Based on your 
experience, what is the main challenge when it comes to finding 
spectrum bands that could be reallocated?
    Mr. Reed. I think the main challenge is understanding how 
the new systems that would enter in that band would potentially 
interfere with the legacy users. And that involves getting an 
understanding of the nature of what we call the channel, the 
propagation channel, how well will the signal transmit.
    It also means looking at the susceptibility of those 
systems to interference. And this requires studies, upfront R&D 
well beforehand in developing the planning tools. And in some 
cases there can be issues in terms of classification and ITAR 
as well when you deal with DOD systems. And sometimes that 
breaks down the communication between the commercial entrants 
and the legacy DOD users.
    Ms. Clarke. So having said that, how would you suggest that 
we move forward to keep up with consumer demand?
    Mr. Reed. Well, I think we need to get commercial entities 
talking very early with the Department of Defense. With these 
transitions, they will not go smoothly. There are always going 
to be things that come up that weren't expected and if we are 
transparent on both sides and collaborative on both sides, then 
we will be able to work together to solve those problems.
    Ms. Clarke. It would seem to me that those discussions 
should be underway as we speak, knowing what we know about the 
almost inevitability that these requests are coming down the 
pike.
    Mr. Reed. I agree with you.
    Ms. Clarke. Did you want to add something, Mr. Roberson?
    Mr. Roberson. I am always delighted to add. But in this 
area, I think the key point is doing the work up front to the 
degree possible, as Dr. Reed has said. The other point that I 
would add though is that having an independent arbiter, if you 
will, technical arbiter, that can provide the input on whether 
a particular proposition is technically accurate or not is 
very, very important. Such an arbiter has been recently 
established under the Department of Commerce in Boulder. NASCTN 
is the acronym for the organization. And I think this 
organization can be extremely valuable in helping to sort 
through some of these issues and expeditiously and 
independently coming up with resolutions that will stand the 
test of time.
    Ms. Clarke. Very well, and after the incentive auction next 
year, the next major auction could be years down the road, so 
what are the next generation technology demands on spectrum? We 
have been able to understand what that is and what it looks 
like and that is open to the panel.
    Mr. Berenbroick. So in your opening statement, you 
referenced the internet of things. I think the internet of 
things is the next generation demand on that network. Billions 
of devices are going to connect to one another, largely through 
small cells using unlicensed spectrum. Additionally, as folks 
have mentioned on this panel, traffic over the licensed 
networks is going to continue to grow exponentially.
    So the challenge here is to share spectrum as we have 
mentioned on this panel. The process of freeing up and 
reallocating spectrum is long and cumbersome and difficult. 
Sharing spectrum provides sort of a work around, if you will to 
use spectrum that is under utilized. So I think internet of 
things, finding a way to deal with increased mobile traffic and 
I think spectrum sharing is in the short term I think a great 
way to accomplish meeting those needs.
    Mr. Roberson. We have an insatiable demand for spectrum. 
The demand for data, be it the internet of things or us 
communicating with one another or communicating to computers, 
deriving information from them or satisfying our entertainment 
needs, it is an insatiable demand right now. So moving to 
technologies that allow us to re-use that spectrum and use it 
very efficiently is absolutely critical and there are many, 
many things. I could spend a very long time on your question 
because it is a very rich question. But these technologies must 
be explored and used in concert with one another and there are 
many technologies that have to come into play to even approach 
the satisfaction of our needs as a U.S. national organization.
    Mr. Reed. I think one thing that we need to be aware of is 
that the nature of wireless traffic could change over the 
coming years. And by that, today, we are receivers of 
information. We receive our email. We don't compose a lot of 
the email from our blackberries or iPhones. We download web 
pages. We watch movies. But in the future, we may be actually 
collectors of information and that traffic may flow from us 
into the network.
    To be able to accommodate that that means we are going to 
have flexible spectrum policies going forward as we tend to do 
allocations based upon what direction the information flows.
    Mr. Walden. Very interesting. We will have to pursue that 
another time with you because that is something we better be 
prepared for because we are in the multiples down versus 
singular up. We will go now to, I believe, Mr. Long is next in 
seniority based on the fall of the gavel.
    So Mr. Long, you are up next.
    Mr. Long. Thank you, Mr. Chairman. Mr. Berenbroick, much 
has been made of the proper valuations of spectrum lately. 
There has been a lot of talk. And while it is difficult to 
predict, what do you view the potential dollar value of cleared 
spectrum and the bands considered best used for mobile 
broadband?
    Mr. Berenbroick. Thank you for the question. Unfortunately, 
I am not a spectrum valuation expert. I wish I had that 
information for you. I can follow up with you after the 
hearing.
    Mr. Long. I think that is very vital. I think that is 
something that I would like to learn from you if you could have 
your folks get back with me, I would appreciate it.
    Mr. Berenbroick. Sure, I am happy to follow up. Thank you.
    Mr. Long. OK, and Dr. Reed, how do you strike an 
appropriate balance between allowing industry to participate in 
the research and development phase, repurposing spectrum, and 
avoiding concerns of agency abuse of the process?
    Mr. Reed. Let me see if I understand your question. Are you 
saying----
    Mr. Long. How do you strike an appropriate balance between 
allowing industry to participate in the research and 
development phase, a repurposing spectrum, and avoiding 
concerns of the agency's abuse of the process?
    Mr. Reed. That phase ``avoiding the agency's abuse of the 
process,'' I take that to be that sometimes there is a clash 
between legacy federal users and those that want to enter the 
band. And you know, it is understandable. It is human nature. 
We want to protect what we have.
    I think what needs to be shown up front is that this is 
going to benefit the current users of that spectrum by doing 
this transition, that the commercial entities will help make 
that transition go smoother, although in the end potentially 
have even more capabilities through that collaborative 
activity. So we have to build trust and transparency.
    Mr. Long. OK. Thank you. And this is for you, Dr. Reed, and 
Mr. Roberson. Is it Roberson?
    Mr. Roberson. Either is fine.
    Mr. Long. I will call you either then.
    Mr. Roberson. I do that, too.
    Mr. Long. In seeking to maximize the value of spectrum to 
be auctioned, it seems to me that we need to do a few simple 
things like minimize impairments and provide potential bidders 
with as much information as possible about spectrum that they 
are bidding on. And being a former auctioneer for 30 years, I 
realize that the most information you can get to folks about 
what they are bidding on usually helps in the end result. Would 
you agree with that assessment?
    Mr. Reed. Oh, absolutely. The value will go up if we can do 
risk mitigation for those that are bidding on the spectrum.
    Mr. Roberson. I definitely agree as well.
    Mr. Long. With respect to impairments or exclusion zone, do 
you agree that we should base our judgments on real world usage 
rather than worst case analysis that might assume more 
interference than is really realistic in the real world and 
thus reduce the value of the spectrum to potential bidders, Dr. 
Reed?
    Mr. Reed. That is so true. There has never been a 
communication system that has been able to get by without 
interference. And sometimes I see in FCC issues claims of 
interference, but it has to be significant interference. You 
just can't say it is going to interfere. You have to have a 
balance of risk with practicality.
    Mr. Long. OK.
    Mr. Roberson. No, totally agree. Worst case analysis, when 
we had an abundance of spectrum, that was a wonderful thing to 
do. It protected everyone. We don't have an abundance of 
spectrum. So balancing risk is critical now and we have the 
tools to be able to do that. Many other agencies do use these 
kinds of tools way away from worst case to a practical case 
which is what your question was.
    Mr. Long. OK. Thank you. And Mr. Berenbroick, what 
opportunities are there for federal agencies to share spectrum 
with other agencies?
    Mr. Berenbroick. Well, I think there are numerous 
opportunities. I don't have examples at my fingertips for you. 
But as the other panelists have mentioned, there are 
opportunities for spectrum to gain more spectrum efficiency and 
for spectrum sharing. Technologies that we have access to and 
are yet to be developed will allow for that.
    So there will be robust opportunities for agencies to share 
spectrum with one another, to share spectrum with unlicensed 
users and potentially to share spectrum with commercial users. 
That is why I think the discussion draft bill before the 
subcommittee is so important. It asked the FCC to ask and 
answer these questions.
    Mr. Long. Thank you. I am past my time and I yield back.
    Mr. Walden. The gentleman yields back. The chair now 
recognizes the gentlelady from California, Ms. Matsui.
    Ms. Matsui. Thank you, Mr. Chairman. Congressman Guthrie 
and I have been working in a bipartisan manner on spectrum in 
close cooperation with the federal agencies. We co-chair a 
spectrum working group and we are tasked to find solutions to 
meet our nation's growing commercial spectrum needs. I believe 
our collaborative oversight, and I do say collaborative, was 
critical to the success of the AWS-3 Auction which raised, as 
you know, more than $45 billion. And we worked to provide a 
reasonable path and that was really very important for the 
Department of Defense to relocate the 1755 to 1780 band in a 
responsible manner. And the AWS-3 was a huge win for consumers, 
innovation, and FirstNet, the public safety network that the 
auction will help pay for.
    Dr. Reed, what lessons do you think we learned in the AWS-3 
process?
    Mr. Reed. I think the lessons are yet to be learned. We are 
still in the process of doing this transition and there is 
still a number of unknowns. For instance, what will the 
interference be with a large number of consumer handsets? How 
will they impact military systems? How will the commercial 
systems respond to the interference that might be caused by DOD 
systems? How do we go about authorizing zones in which the 
commercial users can operate when and where? Those are details 
that have yet to be worked out. So far, so good. But I wish 
these details had been worked out earlier.
    Ms. Matsui. Right. I think we were making reasonable 
progress as we were trying to do and with our conversations 
with DOD trying to get to a point where we could have our 
discussion and move forward, knowing that there are details 
that we had to work on later.
    Mr. Reed. Yes, I would say don't slow it down.
    Ms. Matsui. No.
    Mr. Reed. I don't want to sound like we should slow this 
down and work out the issues.
    Ms. Matsui. I understand that.
    Mr. Reed. We just need to do more of the upfront R&D, have 
more people working on it beforehand.
    Ms. Matsui. Now Dr. Reed and Mr. Roberson, I know that you 
both serve on PCAST and that 2012 report from that group stated 
that federal agencies may have no incentive or authority to 
enhance their use of spectrum if the cost to police the budget 
available for the core mission.
    My legislation with Representative Guthrie seeks to provide 
that incentive, encouraging federal agencies to be more 
efficient by allowing them to share in auction proceeds.
    Mr. Berenbroick, do you agree that these financial 
incentives can be a game changer for federal agencies?
    Mr. Berenbroick. Yes. We do think they can be and we hope 
they are. Providing financial incentives for federal agencies 
to relocate and use spectrum more efficiently could be a useful 
tool in freeing up more spectrum to be repurposed for 
commercial and unlicensed uses. But we should also remember 
that those incentives might not be a silver bullet. That is why 
we also support sharing a federal spectrum.
    And I also just want to point out if we are able to 
reallocate spectrum for commercial and licensed uses, we should 
think about competition as we reallocate that spectrum. And for 
these reasons this is why we are supportive of the legislation 
that you and Congressman Guthrie sponsored, H.R. 1641.
    Ms. Matsui. As we are talking about reallocation of 
spectrum rights and reallocation of government users, 
typically, you have the priority when developing spectrum 
policy. The spectrum sharing also is an option as noted in Dr. 
Reed's testimony.
    Dr. Reed, are there some services that are better suited to 
using shared spectrum than others?
    Mr. Reed. That is a good question. Certainly with shared 
spectrum, if you are a secondary user, your access may not be 
as reliable as with licensed spectrum, but there are certain 
types of traffic, for instance, video. And video is the big 
growth area in wireless communications right now. It is 
dominating the internet and is going to dominate wireless 
transmission. Those sort of applications are not real time 
sensitive because you can store it up during the times in which 
you don't have the link. You just deplete from your memory. So 
there are better applications. Some applications are better 
than others.
    Ms. Matsui. Well, can you think of scenarios in which 
spectrum clearing through reallocation may be preferred?
    Mr. Reed. Yes, I believe that there should be licensed 
spectrum. There should be unlicensed spectrum and there should 
be shared spectrum. Now where the boundaries lie, of course, 
that is going to be controversial. Licensed spectrum does have 
its benefits in terms of being able to guarantee the quality of 
service. But on the other hand, shared spectrum also has a 
role.
    One of the use areas for shared spectrum is kind of like 
the overflow spectrum. If an operator's network is being 
impacted, they could always go to their shared spectrum reserve 
to help fill those needs.
    Ms. Matsui. That is the combination you are talking about?
    Mr. Reed. Yes, it is like with energy as well, where the 
power company can turn off your----
    Ms. Matsui. Right. I understand that my time is up. So 
thank you very much.
    Mr. Latta. The gentlelady's time has expired and the chair 
now recognizes the gentleman from Texas, the Chairman Emeritus 
of the full committee, Mr. Barton, for 5 minutes.
    Mr. Barton. Thank you. A lot of times at these kind of 
hearings we have to ask political questions and sometimes we 
have to ask ``got you'' questions. But sometimes we can 
actually ask fact-based questions and admit, at least in my 
case, I don't know anything. So I am going to ask some fact-
based questions because I don't understand spectrum.
    I made Ds in electrical engineering. I am an engineer. But 
I made Ds in electrical engineering. I made Cs and Bs in 
physics. I am old enough to remember the old radio dials. You 
had 600 on the low end or 500 and 1600 on the high end. I never 
understood the difference between AM and FM. But I am trying to 
get a handle on this spectrum and I understand we have two 
engineers here that know all there is to know about it.
    So in this room, how much spectrum is there right now? Is 
there an infinite amount of spectrum? Or is there a finite 
amount of spectrum?
    Mr. Roberson. I will grab that. There is definitely a 
finite amount of spectrum.
    Mr. Barton. Finite.
    Mr. Roberson. Which is the challenge. It is divided up into 
frequencies, but it is very finite. It is temporal in that it 
is reusable, the spectrum that we have now, we have again now. 
So it is reusable.
    Mr. Barton. That confuses me.
    Mr. Roberson. The spectrum is the thing. But its use is 
temporal. So if you are using it at one moment, it can be used 
again a few moments later.
    Mr. Barton. If we didn't have the FCC, would it make any 
difference how much spectrum was used in this room? I mean----
    Mr. Roberson. It depends on its use. Yes, it would 
definitely make a difference in how much is used because of the 
spectrum being allocated for purposes like the AM radio that 
you were describing, that is a band of spectrum, a set of 
frequencies that are allocated for a specific purpose. There is 
another band allocated for--or several--for television, for FM, 
for cellular it has several bands. But this is the allocation--
--
    Mr. Barton. What I am trying to get at is why we need to 
worry about this? Is there at any given moment in time can only 
one broadcaster or user be using a specific, to use your term, 
band of spectrum?
    Mr. Roberson. Yes, only one at any given time.
    Mr. Barton. OK. If I am on the 600 band spectrum in this 
room, can somebody in the next room also be on the 600 band of 
spectrum and in the next room?
    Mr. Roberson. Yes. Under the right circumstances so that 
you don't have power that leaks across room boundaries.
    Mr. Barton. See, I don't understand that. What does that 
mean, ``don't have power''?
    Mr. Roberson. You do actually understand it.
    Mr. Barton. I am glad you think that.
    Mr. Roberson. No, no, no. I will explain it very quickly as 
I do to my classes. If you throw a rock at a pond, it creates--
--
    Mr. Barton. I am not a college level student. I am a first 
grade level student.
    Mr. Roberson. That is why I threw rocks in ponds.
    Mr. Barton. OK. I have thrown rocks in ponds.
    Mr. Roberson. Yes. And when you throw a rock in the pond 
there was a big wave close to the rock, right?
    Mr. Barton. Yes, sir.
    Mr. Roberson. And as you got out to the edge of the lake, 
there was almost no wave motion at all.
    Mr. Barton. I never saw that far, but I will take your word 
for it.
    Mr. Roberson. The notion is there is a finite amount of 
energy that is inserted at a point.
    Mr. Barton. OK.
    Mr. Roberson. As you expand, the incremental amount of 
energy seen at any point on the circumstance of that is 
diminished.
    Mr. Barton. OK.
    Mr. Roberson. So in this room, you can have a finite amount 
of----
    Mr. Barton. So a one watt radio station wouldn't go very 
far. But a 100,000 watt radio station----
    Mr. Roberson. I told you you knew a lot about it.
    Mr. Barton. Well, I do remember what a watt is. That is a 
measurement of power. So I got that. Some of my colleagues, 
they won't admit that they don't know either. They are nodding 
their heads.
    Mr. Roberson. No, but you have hit a very important point. 
You really have hit an extremely important point. If you use 
low power, you can reuse that spectrum over and over again.
    Mr. Barton. Lots of people can do low power.
    Mr. Roberson. Lots and lots of people as long as they are 
geographically separated.
    Mr. Barton. OK, now last question because my time is about 
to--is any of this spectrum better? I keep saying the premium 
spectrum. What makes spectrum better than other spectrum?
    Mr. Roberson. This is the point that Dr. Reed made around 
propagation. Different spectrum at different points propagates 
better through the wall, for instance. Some spectrum will go 
right through the wall and not even see it. Other spectrum will 
be absolutely blocked by that wall.
    Mr. Barton. So best spectrum is more propagated, if that is 
a word?
    Mr. Roberson. Depending on its purpose. It has to be fit 
for purpose.
    Mr. Barton. OK.
    Mr. Roberson. For television, it propagates through walls.
    Mr. Barton. That is a good thing.
    Mr. Roberson. Or if you want to keep the information 
enclosed in this room, you want to use a very high spectrum, 
high band of spectrum that doesn't propagate through the walls 
because you wish to contain the spectrum and you wish to reuse 
it. That is where the millimeter waves come in because they 
don't propagate well at all because water and oxygen absorb 
that energy.
    Mr. Barton. OK. I learned a little bit. Thank you for 
humoring me, but I really don't understand it and the only way 
to learn is to ask questions.
    Ms. Eshoo. I give you enormous credit because around here 
people don't want to acknowledge that they don't know and there 
is nothing wrong with that.
    Mr. Barton. Well, if this were oil and gas, I wouldn't 
admit that.
    Ms. Eshoo. I got you. I think it is very important what you 
said.
    Mr. Latta. We appreciate the gentleman's line of questions 
and his time has expired. The chair now recognizes the 
gentleman from Ohio, Mr. Johnson, for 5 minutes.
    Mr. Johnson. Thank you, Mr. Chairman. And thank you to our 
panelists for joining us today.
    You know, in August, the Office of Management and Budget 
made a variety of suggestions about the spectrum relocation 
including the idea that the FCC should be permitted to ``charge 
modest licensing device or database administration fees'' in 
order to ``facilitate greater unlicensed access.''
    Now I support efforts to open additional and appropriate 
bands for unlicensed use, but I am firmly opposed to proposals 
to impose a tax on devices that use unlicensed spectrum. As the 
internet of things grows and more and more devices are 
connected, that could expand the tax man's reach to not just my 
phone, but my car, my refrigerator, my thermostat, and all 
sorts of other devices around the home that utilize spectrum. I 
think that is a terrible idea.
    So for the panel, what are your views on the 
administration's proposal to tax devices that use unlicensed 
spectrum? And we can just go down the row there.
    Mr. Berenbroick. Thank you for the question. So Public 
Knowledge has not taken a position on that question 
specifically, but I might be speaking out of turn here. I would 
imagine that when we do take the position that we will not 
support taxes on devices, on unlicensed devices.
    Mr. Johnson. Thank you. Dr. Roberson?
    Mr. Roberson. I am not actually familiar with the proposal, 
but it doesn't sound like a very good idea to me in that you 
wish to keep the airways as open as you can and this would seem 
highly restrictive, especially with the billions of devices 
that are likely to be out there in the internet of things 
world. I don't even know how you would administer it.
    Mr. Reed. First of all, let me say why funds are needed. In 
the spectrum sharing regiment, it is like going to a library. 
You check out a library book and it can be recalled and it is a 
way to deconflicting and managing the spectrum. So there are 
costs.
    Now that said, I really don't have an opinion on whether it 
should be a tax or not. There may be other ways to do that. But 
definitely there are expenses involved.
    Mr. Johnson. I understand there are expenses. I certainly 
agree with that. But what I don't agree with, is that spectrum 
users in rural areas across the country that are increasingly 
dependent upon access through devices for connection to the 
internet, to the cloud, to services, are going to pay the 
lion's share of these kinds of costs.
    Dr. Reed and Professor Roberson, in its progress reports, 
NTIA has identified 245 megahertz of spectrum they have 
repurposed in the last five years. However, when we examine 
that a little more closely, much of this spectrum was made 
available through changes in service rules or mandated by 
legislation. So do you believe that NTIA is making sufficient 
progress in independently identifying and repurposing bands of 
spectrum? And how can we help improve that process?
    Mr. Roberson, do you want to go first?
    Mr. Roberson. Sure. This is an enormously challenging area 
identifying the spectrum. I provided in my testimony some of 
the areas that can be pursued. I think this is something NTIA 
must provide leadership on and must put out effectively a 
funnel, as you would think of a sales funnel of much more 
spectrum that can be pursued and then per the conversation that 
we have been having, much more research is needed to choose the 
best of those spectrum options and then to rigorously pursue 
how to make those available.
    Mr. Reed. Actually, I visited NTIA as part of National 
Academy's evaluation of their lab facilities there, the folks 
who go out and make those measurements. They are good 
technically, but the leadership until recently that is, they 
have new leadership now. The leadership wasn't all that great. 
And they were under funded and somewhat bureaucratic. So they 
have had their challenges.
    That said, given the tools that they had, they did well. 
They just should have had more. They should have had more time 
and resources to do some of the upfront measurements at 3.5 
gigahertz. In fact, I even asked them that question. Why didn't 
you guys do this? And they said we just didn't have the budget.
    Mr. Johnson. Mr. Chairman, I yield back.
    Mr. Latta. The gentleman's time has expired and he yields 
back. The chair now recognizes the gentlelady from North 
Carolina for 5 minutes.
    Mrs. Ellmers. Thank you, Mr. Chairman. Thank you to our 
panelists for being here today on this issue.
    Mr. Berenbroick, did I----
    Mr. Berenbroick. That is perfect.
    Mrs. Ellmers. OK, perfect. Thank you. Because it sounds 
just like it looks, so good. You mentioned in your testimony 
the importance of unlicensed spectrum. And in particular, the 
unlicensed underlay. Can you elaborate on this concept and why 
it would be a potential solution as a reform to spectrum 
policy?
    Mr. Berenbroick. Sure. And I have been saying that all my 
life that it looks like it sounds, so I am glad to be validated 
on the record.
    So the idea of the unlicensed underlay, basically there is 
consensus that there is a need for more unlicensed spectrum 
with the internet of things coming with the amount of traffic 
that is being offloaded on to unlicensed networks. A federal 
underlay would allow for unlicensed use in bands where federal 
users reside. The idea would also be to make sure that critical 
federal functions, for instance, things like national security 
functions are protected, to take all interference mitigation 
steps that are necessary and also to ask the FCC to figure out 
how would this work? Is this workable? Is this possible? Which 
bands are right for spectrum sharing?
    And doing that would potentially open up, Chairman Walden 
mentioned this at the start of the hearing, 18 percent of the 
best spectrum is allocated for federal use. It would allow for 
unlicensed use of that spectrum which, as the other panelists 
have mentioned, a lot of that spectrum sometimes is--I am not 
going to say it is unused, but it is used intermittently. And 
so it would put that spectrum to use more efficiently.
    Mrs. Ellmers. I have another question as we are moving 
towards the 5G and basically the interest from the American 
leadership on that, the question I have is, won't this require 
a great deal of the greenfield spectrum, otherwise bands that 
are not being used for 4G. And won't the spectrum need to be a 
mix of low, middle, and high frequencies? And what has been 
identified so far if there has been?
    Mr. Berenbroick. I can take the part of the question 
regarding the need for low, middle, high frequencies. I think 
these gentlemen might have more concrete thoughts on the 
specific bands that should be allocated. In the FCC's mobile 
competition report which came out in the summer, spring or 
summer of 2014, they identified that for licensed networks to 
operate, the networks need a mix of low band and high band 
spectrum.
    As Mr. Roberson mentioned earlier in his discussion about 
spectrum propagation characteristics, low band spectrum goes 
further distances. It goes through walls. With high band 
spectrum, it can carry more capacity. So for networks that 
operate in both rural and urban areas, for networks that have 
intensive uses for mobile broadband coverage, a mix of that 
spectrum is necessary.
    Mrs. Ellmers. Mr. Roberson and Dr. Reed, would you like to 
comment as well?
    Mr. Roberson. Absolutely. And I would agree that you have 
to have the mix of spectrum. In my earlier testimony, I talked 
about milliliter wave which is brand new spectrum. It's high 
band spectrum, but it has tremendous limitations. So it has to 
be a mix of the two capacity of the higher bands, the coverage 
in the lower bands, and we will need to identify new spectrum 
in both those bands to achieve our goals for the fifth 
generation. And that is critical so that we maintain our U.S. 
position in that space.
    Historically, as generations move first, second, third, the 
leadership has shifted from U.S. to Europe to Asia back to the 
U.S. now. It needs to stay in the U.S.
    Mrs. Ellmers. Dr. Reed.
    Mr. Reed. Yes, I think that we are not unique here in the 
U.S. in terms of facing this spectrum crunch. However, we have 
been a bit more innovative in the way that we approach this 
problem. So I don't think we are going to find much greenfield 
spectrum below 3 gigahertz. It is probably going to be shared 
mostly.
    Mrs. Ellmers. Thank you and I yield back the remainder of 
my time.
    Mr. Latta. The gentlelady yields back and the chair now 
recognizes the gentleman from Kentucky, Mr. Guthrie, for 5 
minutes.
    Mr. Guthrie. Thank you, Mr. Chairman. And I know that my 
friend from Missouri got to go earlier because he is here at 
the gavel, but I want to point--he took out Mr. Lance with a 
jug of water, so he should have been penalized for his order of 
the way to go.
    Mr. Long. I would have done that earlier if I had known I 
would get rid of him that easy.
    Mr. Guthrie. I am working with Ms. Matsui, the sponsor of 
the bill, and I didn't know a lot about spectrum, still don't 
know a lot about spectrum, no more than I did. And the only way 
I knew the difference in AM and FM, my dad had a Pinto that 
only had AM radio. So that means if I was riding with him, we 
had to listen to country music. So it was just the way things 
were.
    And Mr. Berenbroick, thanks for coming. I know you grew up 
in Radcliff which is the home of Fort Knox, so we always 
appreciate that. When people come to Kentucky they want to 
drive by and see the gold vault. What you can see from the 
scene from Goldfinger, you can see from the road. So it is an 
interesting place.
    We started talking about--I know nobody talked about 
incentives. That is kind of where I wanted to go with it. But 
when we started on doing the bill, the question was we can pass 
a bill and say mandate that you release spectrum. You really 
have to have a willing--actually, we worked well with the 
Executive Branch on this with Secretary Strickland. But you 
really have to--either somebody is going to be there managing 
the reports or you can incentivize. So we came up with the idea 
of incentivizing. In the bill is one percent.
    Do you think that is adequate? Should incentives be based 
on the type of spectrum they move forward? Is one percent 
sufficient from what you would see? I mean how would you use 
the financial incentives?
    Another thing, agencies came before us and said well, if it 
is just going to replace money we already have, we lose the 
incentive. So then we talked about does it go above-- does it 
help them relieve some sequester issues by generating more 
money for the Treasury by relieving spectrum? So just kind of 
your thoughts on spectrum. And then I have one other question 
that I want to ask Mr. Berenbroick on how we incentivize these 
agencies to actually do it through financial incentives.
    Mr. Berenbroick. Sure. As I answered earlier, I do think 
the financial incentives can be a way to get those agencies to 
either relinquish spectrum in some cases or to figure out how 
to relocate and use other bands.
    Mr. Guthrie. There is a lot of work to do. I just thought 
you just turned a dial. But it is not.
    Mr. Berenbroick. It is not.
    Mr. Guthrie. I have learned that.
    Mr. Berenbroick. And so going to your question of how much 
incentive is enough, I think that question is going to be fact 
specific to each individual agency. I think different--some 
agencies might simply decide look, whatever the amount is, we 
are not going to move. Other agencies might decide for a 
specific amount, we would be interested in moving. So I think 
it is going to be agency specific and mission specific, because 
remember, we want to make sure that the agencies can continue 
to do their mission, but we also want to make sure that we are 
freeing up spectrum and using it in the most efficient way 
possible.
    Mr. Guthrie. So I guess my question is so setting it at one 
percent, your suggesting it would have to be flexible because 
in order to get what we want out of the legislation, one 
percent may not incentivize someone, but it may incentivize 
someone else. Who do you think should do that, NTIA, OMB? 
Because unless we have to change the law every time we come up 
with this issue. That is how we----
    Mr. Berenbroick. I think NTIA and OMB are the agencies that 
come to mind, but there could be somebody else. I mean I would 
imagine the FCC would also want to think about what the best 
way to relocate those users is and what the use of that 
spectrum would be after relocation. I imagine it would be a 
conversation between the appropriate committees and those 
agencies.
    Mr. Guthrie. I am going to go to my second question. So I 
had a semester of electrical engineering before I realized that 
wasn't for me. So I never could understand it. The right hand 
rules was about all I got out of it, but there is a big debate 
about sharing. So like you have emergency sharing, so to make 
an example simple, I said well, it is like this. We don't build 
highways for ambulances. We build highways that people use and 
when ambulances use them, we get out of the way.
    I was just in New York City and sometimes it gets crowded 
and I had to get out of the way and I almost got up on the 
sidewalk so an ambulance could get by. So I mean it is easier 
on I-65, we pull over and the ambulance goes by. Sometimes it 
gets crowded. Will sharing really work? That is the physics 
question or the electrical engineering question. And can people 
just get out of the way when emergencies need to use it or 
would it be too disruptive to share?
    Mr. Reed. Actually, I like to think of it in terms of E-Z 
Pass as well. Sometimes you really need to get to that location 
and you need to get there quickly and you are willing to pay 
that $5, who knows how much, just to get there. And the way 
that we have set up sharing is a prioritized basis and those 
who at least in the 3F gigahertz band who go to the auction and 
get primary access, they will have that freedom.
    I think it is possible for us to manage spectrum and to be 
able to deconflict legacy users to get out of the way, for 
instance, of a military radar system or a satellite uplink when 
the time is needed.
    Mr. Guthrie. Would you see a constant disruption like I am 
watching--well, everybody is OK if we have a battle or 
something is going on, but is it just little things will always 
be disrupting or something can be managed?
    Mr. Reed. It just depends upon the situation. I think at 
3.5 gigahertz, I think there is going to be very little 
disruption. There are not that many federal systems out there. 
There are not that many ships that have that high-powered radar 
system, the SPY-1 or the SPIN-43 radar systems.
    Mr. Guthrie. So even if like a hurricane is coming and 
emergency needs it, sometimes you need to just watch the 
broadcast because of the hurricane, watching the weather and 
the news on your device. So it kind of plays in it. I know I 
went over my time.
    Mr. Roberson. If I could just very quickly, I think 
technology does solve this problem. The sophistication of the 
prioritization that exists today absolutely allows this sharing 
to take place and to take place very efficiently.
    Mr. Guthrie. Thank you. I yield back.
    Mr. Latta. The chairman yields back and the chair now 
recognizes the gentleman from Texas, Mr. Olson, for 5 minutes.
    Mr. Olson. I thank the chair and welcome to all three 
witnesses. My first question is for Dr. Reed and Professor 
Roberson. What steps are federal agencies taking to improve 
spectrum efficiency particularly in the bands traditionally 
viewed as most viable for commercial use? Big question. Your 
thoughts, Dr. Reed?
    Mr. Reed. Well, in the case of the AWS-3 transition, they 
are moving some of those systems out and they are consolidating 
these federal systems together in a different band. So they 
will be more efficient users of the spectrum that they have. 
There will, however, still need to be some legacy systems that 
operate there because of the amount of time and money it takes 
to move those systems out. And there are some technologies that 
can help with this. Frankly, I don't think we know how well 
they will help at this point. Again, it gets back to the R&D 
issue. But I think that we will be able to leverage some of the 
great properties of long-term evolution, LTE 4th Generation 
cellular. It is actually quite robust interference. So I am 
optimistic we will get good spectrum efficiencies.
    Mr. Olson. Thank you. Professor Roberson. Your thoughts, 
sir.
    Mr. Roberson. Sure. There are a number of initiatives that 
are in the works, but these need to be expedited, so I will 
give you a balanced view. There are many things going on. Dr. 
Reed spoke to some number of them. But there is so much more 
that could be done. The way in which spectrum is managed within 
an organization like the Department of Defense is still very 
inefficient at this point. They know how to move from the 
inefficient approach, very human-centric approach to an 
approach that is much more richly supported by technology and 
by data. But they have not been able to move that. They have 
vast systems and they have increasing needs as well. But the 
opportunity is there. It just needs to happen and happen more 
quickly. And this would apply to many others than the 
Department of Defense.
    Mr. Olson. And to follow up on Mr. Guthrie's line of 
questioning for you, Dr. Reed, when evaluating potential bands 
to be repurposed whether through auction or sharing, what are 
the most important considerations for us to keep in mind? How 
can we help and how can we hurt?
    Mr. Reed. Good one. Certainly policy is going to make a 
huge impact. Being able to move quickly, but policy needs to be 
grounded in good engineering. And if we don't do our upfront 
engineering, then we could end up in a mess, granted.
    The committee and the regulatory agencies have been moving 
remarkably fast compared to the historic performance and I 
applaud them for that and I think that that should continue. I 
think making sure that there is a lot of transparency in the 
overall process, that it is not DOD versus AT&T. We don't want 
to go there. They need to work as a team. So those are my 
thoughts.
    Mr. Roberson. I think the biggest thing is the application 
of data, the application of technology. There is so much 
inertia in the rules and regulatory processes that we have 
today that overcome that and to move into the world that, where 
for instance, the spectrum observatory that we have put up at 
Illinois Tech. You can see the use of the spectrum. You have 
that data logged for years of time. Being able to apply data, 
real data, not theory, not worst case analysis, but real data 
to the problems and move things forward is really critical. And 
I think your part of this is to insist that conjecture not be 
the way in which decisions are made. It is rather based on 
absolutely solid research data that is available that 
concretely describes the situation and the opportunities that 
are in front of us.
    Mr. Olson. Thanks. I will have a question for the record, 
but one final informal poll. Houston Astros or Kansas City 
Royals. Any thoughts about that, guys?
    Mr. Berenbroick. St. Louis Cardinals.
    Mr. Olson. Thank you. I yield back.
    Mr. Latta. The gentleman's time has expired. Really 
expired. And he yields back. And on behalf of Chairman Walden 
and also for the gentlelady, the ranking member from California 
and myself, we thank you very much for your testimony today. 
And seeing no further business to come before the committee, we 
stand adjourned.
    [Whereupon, at 12:11 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    There's no question that freeing up additional spectrum for 
commercial use is a vital step in ensuring America's continued 
leadership in technology and innovation. Congress, the 
administration, industry, and public interest groups are all in 
agreement that there is a need for a great deal more spectrum 
to meet demand for important services and technologies.
    Our federal agencies are the biggest single user of 
spectrum, much of which is devoted to important work and 
operations. But surely there are ways to invest in our agencies 
and improve systems to ensure that they are using spectrum in 
the most efficient way and with the best equipment. Getting 
agencies to make these changes can be difficult. It requires 
federal users to take on additional work without compromising 
their core missions--a difficult sell. One way to encourage 
agencies to make this kind of investment of time and resources 
is to provide them with a financial incentive for relinquishing 
unused or unneeded spectrum. Reimbursement for the spectrum 
they give up can help to further their mission in other ways. 
The bill put forward by Representatives Guthrie and Matsui will 
be an important step in this process.
    The committee is also considering a discussion draft of a 
bill to identify additional bands of spectrum that could be 
made available for consumer use. Spectrum has helped transform 
the daily lives of folks in Michigan and across the country--
giving us the ability to stay connected with personal devices 
today that were once unimaginable just a decade ago. While we 
have done a great deal through hearings, whitepapers, and 
legislation to promote the availability of spectrum, there must 
be a consistent and predictable supply to fuel competition and 
innovation to pave the way for continued advancement. NTIA and 
the FCC have done a great deal of work to identify potential 
sources for spectrum to be reassigned. I am optimistic that we 
can do our part in crafting legislation to provide additional 
structure to this process and give these agencies the tools 
needed to succeed.
                              ----------                              


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
